<html>
<title> - POISON HARVEST: DEADLY U.S. MINE POLLUTION IN PERU</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                            POISON HARVEST: 
                   DEADLY U.S. MINE POLLUTION IN PERU 

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 19, 2012

                               __________

                           Serial No. 112-171

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

75-164 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           KAREN BASS, California
TOM MARINO, Pennsylvania             DONALD M. PAYNE, New Jersey
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
ROBERT TURNER, New York              THEODORE E. DEUTCH, Florida



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

His Excellency Pedro Barreto, Archdiocese of Huancayo, Peru......     7
Ms. Rosa Amaro, president, Movement for the Health of La Oroya...    14
Fernando Serrano, Ph.D., assistant professor of environmental and 
  occupational health, School of Public Health, St. Louis 
  University.....................................................    18
Mr. Keith Slack, global program manager, Oxfam America...........    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

His Excellency Pedro Barreto: Prepared statement.................     9
Ms. Rosa Amaro: Prepared statement...............................    15
Fernando Serrano, Ph.D.: Prepared statement......................    20
Mr. Keith Slack: Prepared statement..............................    37

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    51


           POISON HARVEST: DEADLY U.S. MINE POLLUTION IN PERU

                              ----------                              


                        THURSDAY, JULY 19, 2012

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                  and Human Rights,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2200, Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. Good afternoon, and thank you for being here. 
Today's hearing will examine the human tragedy that is an 
unfortunate but largely preventable byproduct of development. 
On the one hand, the world at large needs materials, such as 
gold, silver, copper, and lead, and people gain employment in 
the extractive industry.
    But extracting the myriad of metals and minerals from the 
Earth often has a dark side and results in elevated health 
hazards for the people who work at or live in proximity to 
mines and the facilities that process these minerals.
    Since 1922, a metallic smelter has operated in the La Oroya 
region of Peru, and has been the almost sole source of 
employment for the area's now 30,000 residents. In 1974, the 
Government of Peru nationalized the facility and, in 1997, sold 
it back to the private sector. The buyer was an American 
company, Doe Run Resources Corporation, of St. Louis, Missouri. 
Both parties acknowledged that there was considerable pollution 
both within and outside the facility.
    Under the purchase agreement, Doe Run was to clean up the 
smelter complex, while the Government of Peru was supposed to 
clean areas outside of the facility. Unfortunately, cleanup has 
been much more difficult than perhaps either side or either 
party seem to have anticipated. Doe Run faced nine phases in 
the Peru-mandated environmental cleanup program. Company 
spokespeople tell us that they spent more than $300 million and 
completed more than eight of the nine phases. However, repeated 
extensions provided by the Peruvian Government for the cleanup 
were not enough to complete the process, which cost much more 
than originally estimated.
    When word circulated that the company might not get another 
extension, the banks declined to continue providing working 
capital, and after vendors went unpaid, the government shut 
down the Doe Run Peru smelter in 2009. Earlier this year, the 
Blacksmith Institute, an international nonprofit organization 
dedicated to fighting the effects of pollution in developing 
countries, confirmed Doe Run's account of making progress in 
ending pollution from the smelter, as well as the company's 
claim of continuing to pay the workers even after the smelter 
was closed down.
    In 2007, the Blacksmith Institute had listed the La Oroya 
site as one of the most polluted in the world. Even though much 
of the cleanup at the smelter reportedly has been accomplished, 
the facility cannot be operated in an environmentally safe 
manner until the final phase is completed. The matter is now in 
the hands of the arbiters. But while the smelter has not 
polluted La Oroya since 2009, the residents of this area and 
indeed Peruvians miles away from this facility still face 
significant negative environmental and health effects from the 
nearly 90 years of pollution from the smelter site. A study on 
pollution at the site presented earlier this year by our 
witness Dr. Fernando Serrano, showed that 3,312 tons of 
particulate matter has been released from the site each year, 
along with 847 tons of lead, 423 tons of arsenic, 226 tons of 
nitrogen oxides, and 43 tons of cadmium.
    Even at relatively small levels in the body, these elements 
can negatively impact children's development permanently. 
Minimal effects include the loss of IQ and hearing and growth 
problems and at much higher levels can cause brain damage, 
seizures, and even death. The level of toxic elements found in 
residents of La Oroya is three to six times the United States 
average. These substances in the environment have robbed 
generations of children and adults in this area of the lives 
that they should have had.
    To properly clean up the environment outside the smelter 
facility, it is estimated that as much as 3 feet of topsoil has 
to be removed and cleaned through an incineration process 
before being replaced. The cost is high because two rivers pass 
through this area, carrying contaminated soil and water 
downstream. In addition to the negative health impact to those 
who drink the water, the crops and livestock fed by the waters 
on contaminated soils constitute a poison harvest for residents 
as far away as the capital of Lima.
    In addition to the health issues posed by this 
environmental disaster, an even broader interest is the 
effectiveness of the free trade agreements, such as the United 
States-Peru Trade Promotion Agreement. Congress has oversight 
over such agreements, and we must ensure that after we have 
approved these pacts, that they live up to the promises that 
led to their original approval.
    The U.S. Government must ensure that American companies 
carry out their end of the bargain. But it is also our 
responsibility to determine whether the government in question 
has lived up to its part of the agreement. In this case, the 
Government of Peru faces a truly daunting task of cleaning up 
decades of mineral contamination from this smelter alone. It is 
an unenviable task, but one on which the well-being of Peru's 
citizens depends. We had hoped to ask the administration about 
this matter at this hearing today, especially how it manages 
the implementation of the FTAs.
    Unfortunately, the Department of State, U.S. Agency for 
International Development, and Environmental Protection Agency 
all declined our invitation to testify today. Whatever the 
reason, our Government cannot just approve trade agreements. We 
also have the responsibility to see that these agreements are 
fully, effectively, and fairly implemented.
    So we will again invite these U.S. agencies to come here 
and give testimony and answer questions. Environmental damage 
in Peru is our concern, not just because we care about the 
suffering people outside of our borders, which we do, we 
absolutely do, but it is also because we have a responsibility 
to make sure our own companies aren't at fault.
    Doe Run admits polluting the area from the smelter facility 
over more than a decade. However, the smelter has been in 
operation for nearly 90 years, and the accumulated pollution 
will endanger Peru's people even if the smelter never operates 
again. We will hear today from four distinguished witnesses, 
including Archbishop Pedro Ricardo Barreto Jimeno of the 
Archdiocese of Huancayo, Peru, who will testify. I note 
parenthetically before briefly quoting him, that the genesis of 
this hearing came out of a meeting that Greg Simpkins and I had 
with the archbishop several months ago. He provided an enormous 
amount of documentation to our subcommittee about this issue. 
And that is why we are here today. So I thank the archbishop 
for that. He will say that this is a matter of grave concern, 
not just to the citizens and residents of La Oroya and of Peru, 
but also to the world, and in particular to the United States. 
``Frankly, I have been very--'' this is him speaking--``very 
critical of Doe Run Peru for its constant noncompliance with 
environmental standards as it operates this metallurgical 
complex.''
    He also points out that he has been the victim of death 
threats and hostility directed at him in his role as bishop and 
pastor of his flock.
    Similar threats have been leveled against another witness 
today who will testify, Ms. Rosa Amaro. I will include in the 
record some of their statements, which I thought were very, 
very telling, but they will make those I know in just a few 
moments.
    Just let me say that in the United States, it was not until 
the enactment of the Comprehensive Environmental Response, 
Compensation, and Liability Act, PL 96-510, commonly called the 
Superfund law, that the United States got serious about 
cleaning up toxic waste sites. Additionally, numerous laws to 
mitigate pollution at its source have also reduced common day 
pollution in the United States and are a model for the world. 
Thousands of what we call Superfund sites that are on what we 
call the National Priority Listing, including 112 sites in my 
own home State of New Jersey, have been rendered clean or have 
had serious mitigation action done, including capping and 
incineration.
    One example in my district is the Roebling Steel Mill in 
Roebling, New Jersey. The business, formed and run by John A. 
Roebling, engineered and built such landmarks as the Brooklyn 
Bridge, the Golden Gate Bridge, and Niagara Falls Suspension 
Bridge. Unfortunately, the environmental disaster left after 
Roebling shuttered its gates had cost more than $80 million to 
clean up. So I fully understand the challenges facing the 
Government of Peru and its industry.
    Finally, the La Oroya crisis offers a major test of our FTA 
process. How we live up to our responsibilities to uphold our 
end of the international trade agreements, such as the United 
States-Peru Trade Promotion Agreement, will determine the value 
of future agreements. Our witnesses today will tell, I know 
because I have now read their testimonies, a chilling story of 
how legitimate commerce can sometimes threaten the life of 
those who live near a mineral wealth. What God has provided as 
a blessing must not be allowed to come, remain or become a 
curse through sickness and disability. I would like to now 
yield to my good friend and colleague the ranking member, Ms. 
Bass.
    Ms. Bass. Once again, Mr. Chairman, I want to thank you for 
holding today's hearing and raising this issue of environmental 
contamination caused by the smelting complex in La Oroya, Peru.
    There is no question that the leaching of high levels of 
heavy metals in the surrounding environment from the complex 
has put the health of the local population at risk, 
particularly those most vulnerable, including children, 
pregnant women, and the elderly. I hope this hearing provides 
an opportunity to better understand the current situation 
regarding pending bankruptcy hearings, community efforts to 
raise awareness around public safety, and what continued 
contamination may cause for those in the surrounding areas.
    I will also be particularly interested in hearing today's 
witnesses remark on the United States-Peru Trade Promotion 
Agreement, and how its health and environmental provisions are 
enforced, and what more can be done to strengthen enforcement 
requirements. We must see to it that companies and governments 
alike adhere to international standards and agreements, and 
that they honor commitments that place the well-being of 
citizens before that of profit. It must be acknowledged that 
the health and security of people is in the best interests of 
the state and therefore should be pursued without fail.
    The 90-year history of mining activities in La Oroya goes 
back to 1922, in a metallic smelter complex high in the Andes, 
which my colleague has already described. I understand that the 
Peruvian Government took over that operation in 1974, and in 
1997, it was transferred to the Metal Oroya company. That same 
year, Metal Oroya was acquired by the Doe Run Resource 
Corporation of Missouri.
    It is my understanding that under the terms of the merger, 
Doe Run, in full cooperation with the Peruvian Government, 
committed to invest funds for the fulfillment of a proportion 
of Metal Oroya's environmental adjustment and management 
program. Legislation passed in 1993 required all mining 
companies to work with the government to protect the 
environment and ensure that certain standards were followed.
    We have heard of the detrimental effects on the Doe Run-
owned complex and surrounding environment and the effect it has 
had on the health of the local community. Large amounts of 
lead, copper, zinc, and sulfur dioxide from the site, I 
understand, have affected over 35,000 people, and the level of 
toxins found in the residents of La Oroya are three to six 
times the U.S. average for acceptable levels.
    Data shows that nearly all children and seven out of 10 
adults in La Oroya were found to have more than 10 micrograms 
of lead in their blood, a level that we know results in IQ loss 
and hearing, learning, language, and growth problems in 
children. At these levels, lead toxicity can also cause cancer 
of the kidneys, and at a higher level, it can lead to more 
serious problems, including brain damage and anemia. I just 
have to tell you, as I read about this situation, I found it 
particularly outrageous, considering in our country I certainly 
remember--and I look forward to hearing from one of the 
witnesses in particular, Ms. Rosa Amaro, because I remember 
what happened in our country. And as my colleague here 
mentioned the laws that were put into place, the Superfund, I 
remember on the other side, which was a grass roots community 
movement that led to the legislation being changed. And I 
imagine when we hear from Mrs. Amaro that she will describe a 
similar grass roots movement.
    Well, through that movement in the United States, it led to 
us taking lead out of paint. And so it is illegal now to paint 
houses in our country with lead. And we are just talking about 
the paint that is in a house. People in this community have 
lived where they have had to deal with toxins spewed into the 
air. And I just think it is outrageous and unacceptable. And I 
am going to be very interested to hear what the community has 
done to respond to this and how we can continue to be 
supportive in your efforts.
    So, once again, Mr. Chair, thank you very much for having 
this hearing, and I look forward to the testimony from the 
witnesses today.
    Mr. Smith. Thank you very much, Ms. Bass.
    Before going to Mr. Carnahan, we also took lead out of our 
gas.
    Ms. Bass. Yes, exactly.
    Mr. Smith. Comprehensive efforts to lessen or mitigate 
risk.
    Ms. Bass. Because we know the damage.
    Mr. Smith. Exactly. I would like to yield now to my friend 
and colleague, Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, and ranking member. 
It is good to be here, to be having this hearing today.
    I want to first welcome Dr. Fernando Serrano from St. Louis 
University. Thank you for your presence here today.
    Dr. Serrano's studies have shed important light on the 
environmental contamination related to the La Oroya smelter 
facility and its effects on public health, especially the risks 
to children. Dr. Serrano's work has found that La Oroya's 
population levels for many of the most toxic metals are more 
than three to six times the U.S. average, with dangerously 
elevated lead levels found in the blood of 97 percent of 
children between 6 months and 6 years of age, and 98 percent of 
those between 7 and 12 years old.
    In 2007, the Blacksmith Institute declared the Doe Run Peru 
complex one of the world's most polluted places. Just south of 
St. Louis, Missouri, my home, is a lead smelter operation owned 
by the Doe Run Corporation and its parent company, Renco Group, 
which has also had its share of environmental and public health 
problems. And for years, families and children living in the 
area of the Doe Run facility were exposed to high levels of 
lead. And according to the EPA, it is one of the most dangerous 
neurotoxins in the environment. In 2010, the company reached an 
agreement with the EPA to pay $65 million for a violation of 
environmental laws, as well as a $7 million civil penalty.
    By the end of 2013, Doe Run is supposed to be closing down 
the old plant there. They had originally announced plans to 
build a new facility. But as recently as June 30, in an article 
in the St. Louis Post-Dispatch, they announced that they won't 
be building a new plant.
    So this has been kind of a moving target in our part of the 
country. But we also see the implications what is going on in 
Peru.
    We also understand there is an economic argument involved 
here. Doe Run Peru's smelting operations provided important 
jobs to many Peruvians, with the mining industry counting for 
over 60 percent of Peru's export earnings. We must look for 
ways, I think, as a government to bring all the parties 
together to comply, to comply with commitments under the 
program for environmental mediation and to reach solutions that 
allow for economic development and jobs but do so with a top 
priority of protecting public health.
    So thank you, Mr. Chairman and Ranking Member for holding 
this hearing. We look forward to hearing from our witnesses 
today.
    Mr. Smith. Mr. Carnahan, thank you so very much, and for 
being here with us today.
    I would like to now welcome to the witness table our four 
very distinguished witnesses, beginning first with Archbishop 
Pedro Ricardo Barreto Jimeno, who is from the Archdiocese of 
Huancayo, Peru. He is also the vice president of the Peruvian 
Episcopal Conference and president of the Justice and 
Solidarity Department of the Latin American and Caribbean 
Regional Bishops Council. In 2005, Archbishop Barreto was named 
the general coordinator of a multi-stakeholder effort to 
address contamination in the community of La Oroya and has been 
recognized for his work on this situation.
    Archbishop Barreto has recently received death threats for 
his continued efforts to address urgent health and 
environmental concerns.
    And I, again, on behalf of this subcommittee, thank him for 
his courage and for his willingness to speak out so bravely 
throughout, including at today's hearing.
    We will then hear from Dr. Fernando Serrano, who is the 
principal investigator of the St. Louis University CDC study to 
determine levels of toxic metals in La Oroya population and in 
the environmental assessment of soil, water, and air quality 
and the Mantaro watershed. Dr. Serrano's studies have provided 
evidence of the extensive environmental contamination related 
to the Doe Run smelter in Peru, and its effects on the health 
of the people, especially children. He is also an assistant 
professor of the department of environmental and occupational 
health at St. Louis University.
    If you two could please come to the witness table. Then we 
will hear from Ms. Rosa Amaro, who is the president of the 
Movement for the Health of La Oroya, a social organization 
founded with the goal of advocating at the national and 
international level around the severe health damage caused by 
the activities of the La Oroya metallurgical complex, a multi-
mineral smelter.
    Rosa's family lives in the neighborhood most affected by 
the pollution. She is the mother of two sons, the youngest of 
which suffers from severe hearing problems that have led them 
to seek specialized care in Lima.
    And finally, we will hear from Keith Slack, who is the 
extractive industries global program manager in the DC office 
of Oxfam America, where he coordinates the organization's 
extractive industries reform program, which promotes greater 
respect by corporations, international financial institutions, 
and governments for the basic rights of communities in 
developing countries mal-affected by oil and mining operations.
    He has previously worked on the ground in Peru for Catholic 
Relief Services. He has published multiple articles and has 
written chapters in volumes on extractive industries and 
sustainable development.

   STATEMENT OF HIS EXCELLENCY PEDRO BARRETO, ARCHDIOCESE OF 
                         HUANCAYO, PERU

    Archbishop Barreto. [The following testimony was delivered 
through an interpreter.]
    Good afternoon to all of you. I am Archbishop Pedro Ricardo 
Barreto Jimeno, and I have been the archbishop of the 
Archdiocese of Huancayo in the center of the Andean area of 
Peru since 2004. That is where the City of La Oroya is located. 
It is one of the most polluted cities in the world.
    I am grateful to Congressman Christopher Smith, the chair 
of the subcommittee, and to Congresswoman Karen Bass, the 
ranking member, for this opportunity to be a witness before 
you, witness to the joys and the sorrows and the hopes of the 
population of La Oroya.
    I also want to thank the 18 Congressmen and Congresswomen 
who sent a letter to Ms. Hillary Clinton, the Secretary of 
State on March 29, at the initiative of Congressman Raul 
Grijalva.
    The letter reveals a great truth. And it says, We are 
writing to express our serious concern with the behavior of 
this U.S. company, Renco Group, and its subsidiary, Doe Run 
Peru, which has negatively affected the image of the United 
States in Peru and in Latin America.
    I am a witness to the fact that these statements are 
unfortunately true. I have seen people cry because of their 
children and grandchildren, who are suffering serious 
consequences and environmental contamination.
    And that is why we are very happy that today we have both 
Democratic and Republican Representatives here together to 
defend the life and the health of the population of La Oroya. 
This is an encouraging sign and example for Peru and the world.
    I am not a political leader, and I am not an expert on the 
economy. I am a bishop, a pastor, who in faithfulness to Jesus 
Christ, our good shepherd, has decided to try to plow fields to 
sew the seed of life, of justice, and of peace.
    La Oroya is inside the territory of my archdiocese, whose 
population has suffered since 1922 from the serious effects of 
the toxic emissions coming from the polymetallic smelter since 
1922 until June 2009.
    It was on that date, in June 2009, that Doe Run declared 
itself to be bankrupt. But the truth is different. The Doe Run 
Corporation has not complied with its commitments to complete 
in 10 years, over the course of 10 years, the environmental 
mitigation projects it had promised to complete.
    The government, under pressure from Doe Run and its 
workers, decided to give the company an extension of 30 more 
months to be able to comply with its environmental mitigation 
program. We also know that here in the United States an 
affiliate of this company has received severe economic 
sanctions because of the effects it has caused on the life and 
health of girls and boys, and because of environmental 
noncompliance with environmental laws in the City of 
Herculaneum, Missouri.
    In fact, the National Mining Society of Peru in 2010 
decided to expel the organization of Doe Run from the society 
for poor corporate practices. And recently, the president of a 
Peruvian enterprise organization, called Confia, has stated 
that companies like Doe Run should not be in Peru.
    The smelter in La Oroya has emitted toxic gases on the 
surrounding population from 1922 until 2009. So we are talking 
about a period of 87 years. Of those years, during 65 years, 
the facility was run by two North American companies. One was 
Cerro de Pasco Copper Corporation, which no longer exists, and 
the other is Doe Run Peru. Both of these companies leased the 
property of the metallurgical complex in La Oroya, and they are 
responsible for generating three-quarters of the environmental 
liabilities that are existing today.
    I should say that in La Oroya and in Peru we are going 
through difficult times. And that is because of the historic 
way in which mining activities have been carried out without 
any kind of socioenvironmental responsibility. And this has 
generated mistrust. The poor population does not trust the 
companies or the central government itself.
    That is why decisions like the ones that you may make here, 
Congressmen and women, are important and effective for helping 
to keep people from continuing to be affected by this kind of 
contamination and to prevent the deterioration of the image of 
the Government and the people of the United States.
    Your actions and determination here has received a great 
deal of attention in the Peruvian press. And this has helped 
the Peruvian Congress and Government to comply more faithfully 
with chapter 18 of the free trade agreement between the United 
States and Peru, which is currently in effect.
    I want to end my testimony by making an explicit reference 
to something that Jesus Christ, our good shepherd, said. And he 
strengthened us by saying two things, that if we are faithful 
to his word, he says, you shall know the truth, and the truth 
shall set you free.
    We will know the scientific truth that Dr. Serrano will 
tell us, Dr. Serrano from the University of St. Louis of 
Missouri, and we will also hear the truth of the human 
suffering of the people of La Oroya from the experiences of Ms. 
Rosa Amaro.
    We will also hear and learn about the ethical and moral 
truth that we are trying to give testimony to today. Because of 
our faith in Jesus Christ, believers cannot be silent in the 
face of evil.
    That is why our position is firm, it is clear, and it is 
nonnegotiable. For Doe Run or any other company to operate the 
smelter and the metallurgical complex at La Oroya, this should 
only happen after the environmental mitigation projects have 
been completely finished. Thank you.
    [The prepared statement of Archbishop Barreto follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                  ----------                              

    Mr. Smith. Archbishop, thank you very much for your 
testimony.
    I would like to now ask Ms. Amaro if she would proceed.

STATEMENT OF MS. ROSA AMARO, PRESIDENT, MOVEMENT FOR THE HEALTH 
                          OF LA OROYA

    Ms. Amaro. [The following testimony was delivered through 
an interpreter.]
    Thank you, Chairman Smith and Members of Congress for the 
opportunity to give my testimony here today.
    My name is Rosa Amaro Toykin. I am the president of the 
Movement for Health in La Oroya, called by its acronym MOSAO.
    I have lived in La Oroya since I was born. The same is true 
of my parents and my family. MOSAO is a group of residents of 
La Oroya who are concerned about the health of women, children, 
and the elderly in the city.
    I am not here as a political leader or as a technical 
expert. I am here as a citizen of La Oroya and as a concerned 
mother of two children, Moises and Jesus.
    I founded MOSAO to help find a solution for the citizens of 
La Oroya so that we can live in a healthy environment that is 
free of toxic gases and smoke.
    In 1999, the Ministry of Health of Peru did a study to see 
what the level of contamination was among the children of La 
Oroya. The results were terrifying. My 5-year-old boy Jesus had 
a level of 58.3 micrograms of lead for each deciliter of blood. 
This is higher than what is considered to be the maximum limit 
by the World Health Organization.
    As you know, lead attacks the brain and the central nervous 
system. Children who survive intoxication, lead intoxication, 
in general suffer from a series of negative effects, including 
dyslexia. These effects are permanent, but unfortunately health 
care is very scarce in La Oroya.
    The toxic emissions that are poisoning the children of La 
Oroya come from the lead smelter that is operated by Doe Run. I 
believe that Doe Run is a bad example of foreign investment in 
Peru.
    The government has already given Doe Run several 
opportunities to resolve the contamination problems at the 
metallurgical complex. But the company has never complied with 
these commitments, and now it has the nerve to sue the state.
    Doe Run has also caused many conflicts inside La Oroya, 
conflicts among family members and between neighbors. Some 
workers that support Doe Run are used by the company to 
demonstrate against MOSAO and against the Peruvian Government. 
For example, the company has its own radio stations that it 
uses to defame and to insult people like myself and like 
Archbishop Barreto, who are only trying to help the people.
    Those who support Doe Run company have thrown rocks at my 
house, and they have threatened my life. When they see us in 
the streets, they shout, ``Death to MOSAO.'' We don't have any 
protection against these threats.
    As a precautionary measure, I hide inside my house, and I 
don't go out much into the streets because I am afraid of being 
attacked by workers and their family members.
    Currently, the level of pollution has gone down quite a bit 
because the Doe Run plant has been closed. And it is the first 
time that my city has had clean air and a clear sky.
    As a citizen, I want my neighbors to live with this clean 
air, and I want any operator of this complex to respect the 
highest environmental standards that protect the health of the 
population.
    I am asking you today to help us so that Doe Run will 
comply with the highest standards of air, soil, and water 
quality, the kinds of standards that are used in the United 
States, so that our children can live healthy lives like 
children in the United States. Thank you.
    [The prepared statement of Ms. Amaro follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Smith. Ms. Amaro, thank you so very much for your 
testimony, and at great risk to yourself for being here. I am 
very sorry to hear of all of the threats that have been made 
against you.
    Dr. Serrano.

 STATEMENT OF FERNANDO SERRANO, PH.D., ASSISTANT PROFESSOR OF 
ENVIRONMENTAL AND OCCUPATIONAL HEALTH, SCHOOL OF PUBLIC HEALTH, 
                      ST. LOUIS UNIVERSITY

    Mr. Serrano. Good afternoon. I would like to thank 
Honorable Chris Smith, chair, and the other members of the 
committee. Thank you so much for inviting me this afternoon.
    I am Fernando Serrano, assistant professor at the School of 
Public Health, St. Louis University, and I have served as the 
principal investigator of several studies to determine the 
levels of toxic metals in the people and in the environment in 
La Oroya and the Mantaro region.
    This afternoon, I am going to show the key findings of 
these studies with you. The study we conducted in 2005 
indicated that 97 percent of children between 6 months and 6 
years of age have elevated levels of lead in their bodies, and 
98 percent of children between 7 and 12. What that means is 
practically the entire population in this age group in La Oroya 
had elevated levels, as was indicated, three to six times what 
we would consider acceptable in the United States. The same 
happened with other age groups.
    We found cadmium six times the U.S. average; the same for 
arsenic in La Oroya. We found in another city far away from La 
Oroya, we found lead in the blood of children, which indicates 
that the contamination has traveled from La Oroya to the entire 
region.
    And of concern to us is the issue of multiple exposure. 
These people are suffering not from one but from all of these 
contaminants affecting their bodies.
    All this contamination is particularly associated to the 
Doe Run Peru smelter in La Oroya. So because people were 
concerned about what they had in their bodies and the high 
levels of toxic metals, they also wanted to know what is 
happening in the environment. So we conducted a comprehensive 
environmental assessment of air, water, and soil in the region. 
And this is what we found. In soil, we had 70 sampling sites. 
In each one of them, we found elevated levels of lead and 
arsenic in the entire region. The highest levels were found in 
La Oroya, extremely high.
    Peru does not have regulations for soil, so we used our own 
in the United States and Canada. And they exceeded many, many 
times the levels of what we would consider acceptable in soil.
    Regarding water, of the 45 sampling sites in the entire 
area, only eight are clean any more. Only eight rivers are 
clean. The rest have contamination. The worst areas were of 
course around La Oroya, where we found higher levels of lead 
and arsenic. This is of concern because this water is used for 
irrigation, and the farmers are concerned that lead will be 
absorbed by crops used by animals and people.
    Lastly, in regarding air quality, we tested air in various 
areas of the region and the City of La Oroya. We found many 
days where the peak sulfur dioxide reached emergency levels in 
the city. So the air was extremely contaminated, not only by 
sulfur dioxide, but also by cadmium, arsenic, and lead.
    It is important to note that after the plant closed its 
operations in 2009 in July, we have seen that SO<INF>2</INF>, 
sulfur dioxide, has decreased 99 percent. Lead has decreased by 
98 percent. Arsenic has come down by 99 percent, and cadmium by 
99 percent. The first time in decades that the people of La 
Oroya are breathing clean air.
    Also, some blood level screening has been conducted in the 
last 5 years. And what we see now, after the closing of the 
plant, that blood lead levels in children have come down 
significantly. So, again, for the first time we have seen 
children with blood levels decreasing.
    So what does this mean? First, that we have sound 
scientific evidence of the grave threat to the people of La 
Oroya and the environment, as the studies have shown. Of great 
concern, again, is the multiple exposure, all these toxic 
metals affecting the body and the health effects. So in the 
discussion of the economic and legal and other factors related 
to the relationship between the United States Government and 
Peru in the framework of the United States free trade 
agreement, I believe we must put an emphasis, we must make a 
priority of the health needs and rights of the people of La 
Oroya, especially the children, and especially the unborn. We 
have children being born with lead in their bodies. And that is 
something that we consider completely unacceptable.
    So the gains in clean air and decreasing blood levels 
should be protected. If that company, whoever reopens the 
smelter in La Oroya, reopens it without strict environmental 
regulations, the entire community will be recontaminated. And 
this would pose again a great, great threat to people who are 
already suffering for decades.
    Lastly, in the public health field, which is our field, we 
don't lose sight of the definition of health, which is this: 
Health is a state of complete physical, mental, and social well 
being, and not just the absence of disease. La Oroya people, 
the population, does not have this health. It is their 
aspiration. So this testimony I hope sheds light on this big 
gap between this aspiration of health and the reality of 
suffering, vulnerability, and risk faced by the people of La 
Oroya, 35,000 of them.
    In closing, for St. Louis University, a Jesuit university 
committed to making sure that research and education serve 
those who most need it, this has been an opportunity for us to 
serve the people of La Oroya, and their organizations, and the 
church that speaks on their behalf. We will continue speaking 
truth to power and providing the scientific evidence until the 
people of La Oroya have good health and a clean environment. 
Thank you. I have submitted a written statement with more 
additional information on these studies, and I would be happy 
to answer any questions.
    [The prepared statement of Mr. Serrano follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Smith. Thank you, Dr. Serrano.
    Without objection, your full statement, and that of all of 
our witnesses, and any other materials you would like to submit 
for the record will be made a part of the record.
    Mr. Slack.

  STATEMENT OF MR. KEITH SLACK, GLOBAL PROGRAM MANAGER, OXFAM 
                            AMERICA

    Mr. Slack. Thank you, Mr. Chairman and Ranking Member for 
holding this very important hearing today.
    The Doe Run lead smelter that we have been hearing about in 
La Oroya, Peru, is at a critical juncture. The Peruvian 
Government next week in fact will make a decision about whether 
or not to allow Doe Run to continue operating the smelter. So 
your oversight of this issue is needed now more than ever.
    My organization, Oxfam America, is an international relief 
and development organization that creates lasting solutions to 
poverty, hunger, and injustice in more than 90 countries. We 
have worked in Peru for more than 30 years. In that time, Peru 
has made great strides in reducing poverty, yet nearly one-
third of the population still lives in poverty. In rural areas, 
that poverty rate is nearly 60 percent.
    This poverty sits in sharp contrast to the great mineral 
wealth that the country possesses. Much of this wealth, 
unfortunately, has not trickled down to the poorest areas of 
the country. Local communities are also concerned about the 
environmental impacts of large scale mining and oil and gas 
activity.
    These impacts can be seen most clearly in La Oroya, as we 
have heard from Bishop Barreto, Ms. Amaro, and Dr. Serrano. In 
that town, an American company, Doe Run, for more than a decade 
has been contributing to serious environmental contamination, 
despite having the resources and the technology to operate in a 
more responsible way.
    Rising concerns about environmental contamination in La 
Oroya and elsewhere in Peru have contributed to a cycle of 
conflict and human rights violations around extractive 
industries projects throughout the country. Most prominently, 
the Mina Conga project, which is a $4.8 billion investment by 
the Denver-based Newmont Mining Corporation, has been the site 
of repeated conflict and violence. Just 2 weeks ago, five 
protesters against the project were shot and killed by Peruvian 
national police during a protest there. In a related incident, 
Marco Arana, a Catholic priest and mining activist, was 
detained and savagely beaten by police, an incident that was 
captured on video and broadcast on YouTube.
    In all, Peru's national human rights ombudsman counts 245 
conflicts across the country, most of these related to oil and 
mining projects. Such a high level of social conflict threatens 
the viability of Peru's natural resource sector and threatens 
to undermine the Government of President Ollanta Humala.
    In order to address this critical situation, and ensure 
respect for human rights and the environment and Peru's 
continued stability, Oxfam America makes the following 
recommendations for the committee's consideration. First, human 
rights training for police, military, and private security 
forces that provide security to oil and mining installations in 
the country needs to be dramatically increased. To address the 
situation, Peru's endorsement of the Voluntary Principles on 
Security and Human Rights, which is a United States and United 
Kingdom-led global initiative that sets human rights standards 
for the oil and mining sectors, would be a critical step. The 
Obama administration and Congress should urge Peru to endorse 
and fully implement the voluntary principles without delay.
    Secondly, Peru's environmental oversight could be 
substantially strengthened. The U.S. Government should offer 
the support of the U.S. Environmental Protection Agency to Peru 
in helping to address critical environmental and public health 
concerns like those that we see in La Oroya. The U.S. EPA has 
extensive experience in dealing with lead contamination issues, 
including those caused by Doe Run's lead smelter in 
Herculaneum, Missouri, and this expertise should be offered to 
the Peruvian Government.
    Thirdly, Doe Run's parent company, Renco Group, is seeking 
$800 million in damages against the Government of Peru under 
the United States-Peru free trade agreement. This suit is an 
attempt to increase pressure on the government in its ongoing 
negotiations with Doe Run, Peru, over the fate of the lead 
smelter in La Oroya. The U.S. Government should support the 
Peruvian Government in defending itself against this claim.
    Finally, the U.S. Government should encourage all American 
companies operating in Peru and elsewhere in the region to 
ensure that they are following the highest possible human 
rights and environmental standards, even in those cases where 
they are legally allowed to do less than if they were operating 
in the United States. American corporations serve as important 
ambassadors of the United States. It is thus in the United 
States' interest to ensure that they comport with American 
values and standards for environmental protection and human 
rights.
    The U.S. Congress can play an important role in supporting 
Peru's efforts to address these issues and solve urgent 
problems like those we have heard about in La Oroya.
    I thank the chairman and the members of the committee again 
for their attention to this critical issue, and I would be 
happy to answer any questions you might have.
    [The prepared statement of Mr. Slack follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Slack, thank you very much for your 
testimony as well.
    Let me begin with Archbishop Barreto and also to Ms. Amaro.
    Not only are you trying to defend people from the horrific 
impacts of chemical poisoning, but your very lives have been 
threatened and others as well. In reading your testimonies, 
especially you, Ms. Amaro, you indicate that the police have 
been far less protective. They want names. When somebody is 
saying something on a radio station, you might not have a name. 
It is up to them to initiate investigations. That is what 
police do.
    So I would like to know if you could speak to, first and 
foremost, the two issues of safety: Pollution and violence. 
Because you are fighting against pollution, you now have the 
threat of violence directed against you. Have the police, has 
the central government, has any government body shown a 
willingness to very aggressively protect those who are under 
threats, like yourselves? What do they do when you come 
forward, Archbishop? Do they just say, ``Thank you very much,'' 
and that is the end of it?
    Ms. Amaro. When we go to government offices to denounce the 
kinds of threats we are experiencing, often these threats come 
over the radio and the representatives in the government office 
will say, well, we need proof. Tell us the names and the 
addresses of the people that are threatening you. And this is 
something we aren't able to do, because it is never possible to 
know exactly who is behind these threats, who are the people 
that are making the telephone calls.
    The workers who work in these radio stations are practicing 
a kind of what we call a white terrorism. They are trying to 
scare people. And what they are doing is agitating the workers 
and the family members of the workers in the plants, scaring 
them, telling them we are their enemies. And in fact their 
children are also contaminated by what is happening in the 
environment, but they are afraid to come forward. But Dr. 
Serrano and Monsignor Barreto have known cases of workers' 
families' children who are also affected by this, but sometimes 
they don't even want to come forward and find out what the 
results of the tests are on their children.
    Sometimes they will have a march in favor of the company, 
and they will march with a coffin, and they will say death to 
Pedro Barreto, Monsignor Barreto, for example, death to MOSAO, 
our organization.
    Our organization has never been against the workers or even 
against the company. We are not their enemies. We want the 
company to be able to continue functions in La Oroya, but we 
think it has to function under certain conditions, and we think 
that we should have complete freedom to be able to talk about 
what is happening there.
    When the police come, they come most of all to protect the 
site of the metallurgical complex, but often what they do is to 
attack the members of the population.
    Mr. Smith. Thank you.
    Archbishop.
    Archbishop Barreto. I would like to add to what Mrs. Rosa 
just said. The people who are defending the health of the 
people of La Oroya in La Oroya, they are heroes; and that is 
why I really want to recognize the courage of Mrs. Rosa and of 
her entire group that defends life there.
    I really am grateful for the question that Chairman Chris 
Smith has asked, because it gives me the opportunity to say 
that it seems that the groups that are coming in to look for 
profit are only interested in making more money. They are not 
interested at all in the lives of the people there.
    The church social doctrine does the best to try to follow 
church social teachings and other people of goodwill. We try to 
put the life and the dignity of human beings and the health of 
human beings at the center of decisions that are made and not 
the opposite. It is not the economy that we need to be looking 
out for. It is the human beings that we need to be looking out 
for.
    It is important to know the truth in these situations, and 
here the scientific truth coincides completely with moral and 
ethical truth. It is true that I have also had threats to my 
own person since 2005. I saw, for example, a clip on YouTube 
where there was a coffin inside the installations, the 
facilities of the plant. The coffin had my last name on it, and 
it had a church symbol that indicated death.
    The national police force itself has actually had two of 
its members killed in La Oroya. They were victims of the 
population and of the pressure that the Doe Run Corporation was 
putting on the population.
    And recently the national police were actually at fault in 
the place of Cajamarca in the Conga mines. All of us are very 
outraged at their brutal response to the demonstrations there. 
It is a serious error that they have made that will lead to 
more conflict.
    Going back to my own situation, thanks once again for your 
concern, Chairman Smith. It is true that there have been a 
number of threats on my life since 2005, and these threats are 
very difficult to prove. Some of these threats have come 
through the public, have been made through public phone booths. 
There was even a Facebook threat saying that my days were 
numbered. But rather than discouraging me or making me too 
afraid, this is actually giving me more strength. We feel like 
we are on the right path because we are defending the life and 
the health of the population.
    Mr. Smith. Thank you very much, Archbishop.
    Let me ask you, Mr. Serrano and Mr. Slack, the remediation 
option, the cleanup option that the government as well as the 
company has to follow, or should follow, it is my understanding 
that the soil could be contaminated to up to three feet and 
maybe more, so that would require incineration, I take it. How 
much of an effort at what cost do you think that would actually 
entail, and is it in your opinion a viable option? Is that the 
best course to take?
    Mr. Serrano. As I indicated, we found toxic metals in the 
soil; and, for us, the top surface is what is of concern. 
Because that is what gets in contact with children, with 
people, and with animals. So the first level of remediation is 
actually the very top level, the first 5, 10 inches. And, of 
course, more in-depth remediation takes place, as you 
indicated, going lower.
    To my knowledge, no remediation has taken place in La 
Oroya, and this is serious. Because, although we have seen 
contamination in the Earth going down, we know that the legacy 
of lead in the soil and the dust is still there since 1922.
    Mr. Smith. Whose responsibility is that? Is that the 
government's or is that the company's?
    Mr. Serrano. It is both. It is both. So when, as you 
indicated, when the plant started to operate in 1922, it 
started to emit all these contaminants, and they accumulate in 
the environment on the soil. In '74, it went back to the 
government, and then it was back to the private sector. So, 
yes, the Government of Peru is responsible for some of it, but 
so is the first American company who operated that and now, 
since 1977, Doe Run Peru.
    From our perspective, whoever is responsible, they need to 
take full responsibility for remediation. Otherwise, that will 
forever be a source of contamination to these people.
    Mr. Smith. My friend and colleague, Ms. Bass, does have to 
leave, so I would like to yield to her. I have additional 
questions. I will yield to her.
    Ms. Bass. Thank you so much. I appreciate it, and I am 
sorry I will not be able to stay. Both my colleague, Mr. 
Carnahan, and I have to leave for other commitments.
    But I wanted to, first and foremost, thank you so much for 
taking the time to come. Your testimony, your courage, I am 
very clear about that and understand what the danger is that 
you face. And as I said in the beginning, I think that it is 
particularly egregious that you are having to face this 
situation, something that we would never tolerate here.
    But I just have a couple of questions, because, you know, 
we talked with the free trade agreement and the fact that the 
company could even use a provision of the free trade agreement 
to sue the government. And I wanted to know, since the company 
has been there so long, has the situation gotten worse after 
the trade agreement? And then is there any consideration, 
frankly, about the Government of Peru suing the company or, you 
know, your organization suing the company? There are certainly 
many international examples of that.
    The plant has closed and so all this issue of the 
harassment and threats and all are from workers who want the 
plant to reopen again, and is it true that they are still being 
paid, even though that the plant is closed?
    Archbishop Barreto. Yes, the liquidation company that is 
now in charge of the Doe Run operations has been paying the 
workers 70 percent of their salary since June 2009. They also 
get a little extra pay for the patron saint celebration time 
and around Christmastime. And, as I said before, on July 26th, 
the Creditors Board will be deciding whether it is going to 
accept the third and last proposal that Doe Run Peru is making 
to restructure itself and continue to operate the smelter.
    Ms. Bass. Has there been any consideration to suing the 
company?
    Ms. Amaro. We have a judicial process right now where we 
are directing it toward the Peruvian Government asking for 
programs to benefit the population of La Oroya. That is where 
we have been focusing on so far. The Constitutional Court has 
ordered the Ministry of Health to give special attention to 
some of the most vulnerable people in our community: The 
children, pregnant women, elderly, and the entire community.
    Doe Run itself has also signed some agreements with the 
regional government where they are supposed to do some lead 
testing, and they also have a center where basically what they 
are doing is taking the kids out of the most contaminated areas 
in the in morning, having the daycare about eight kilometers 
away, and returning them back to the contaminated areas at 
night.
    Archbishop Barreto. I should also say that some U.S. 
lawyers have sued Doe Run Peru under U.S. laws, specifically 
for the cases of 107 children in La Oroya, and the case was 
moving along. But I understand it has stopped now because of 
Doe Run's suit against the Government of Peru. So it is sort of 
in suspension right now.
    Ms. Bass. Let me just close out by once again thanking the 
chair of the committee, and thank you especially letting me ask 
my questions before I leave. My staff member who is sitting 
behind me will be here and will follow up.
    Because I do want to specifically ask--and I am sure the 
chairman is going to raise this--is there anything specifically 
that we can do to aid the situation, especially given that 
deadline, the July 26th situation?
    So I again thank you for all of your testimony.
    Mr. Smith. Thank you.
    Who would like to answer?
    Mr. Slack. Thank you, Chairman and Ranking Member Bass.
    Just to add one additional point to what the Bishop was 
saying, the Renco Group is in fact using the United States-Peru 
FTA to protect itself from liability against the lawsuit that 
has been filed in the Missouri courts. So that is to make that 
connection there that the ranking member was asking about in 
terms of the free trade agreement.
    I think one of the most difficult things to understand 
about this is situation is, given the resources that are 
available to Renco Group as a broad corporate entity, why they 
haven't taken the steps that are needed to address the problems 
at La Oroya, which consist primarily and most importantly of 
installing a sulfuric acid treatment plant to reduce the amount 
of toxic emissions that are produced in La Oroya. This is the 
issue that people are most concerned about in terms of whether 
it is Doe Run or whether it is a company that ends up operating 
the smelter: Will there be a commitment to actually install 
that technology before the smelter begins operating again?
    And this gets to the other question that you had raised, 
Mr. Chairman, about the soil. The concern about the remediation 
of the soil is if the emissions aren't controlled first, then 
you would have to go back, right back, and clean up the soil 
again, because they would become immediately contaminated. So, 
in a sense, it wouldn't make sense to clean the soils first if 
you don't have the control over the toxic emissions, because 
you will just end up with the contaminated soil again.
    In reference to Congressman Carnahan's experience with Doe 
Run in Herculaneum, Missouri, in that situation the company has 
demonstrated that it does in fact have technology that can be 
used that would reduce emissions almost to zero. So the 
question is, why aren't they considering that technology in La 
Oroya? Again, it would seem that, within the greater resources 
of the Renco Group, there would be the capacity to do that.
    Mr. Smith. One of the most important elements of our 
Superfund law is that before the government fund does cleanup, 
the principally responsible party is identified, and they are 
made to bear the cost of cleanup. Does such a mechanism exist 
in Peru? Is it being contemplated by the government? But, 
currently, does it exist?
    Archbishop Barreto. Definitely not. Because, as I said in 
my testimony, during the 87 years that the complex has been 
polluting La Oroya, during 65 of those years it has been two 
North American companies that have been responsible for the 
environmental liabilities and contamination. The State of Peru 
through Centromin Peru was also in charge of the smelter for 23 
years. So if we use this mathematical calculation you might say 
that the two American companies should perhaps pay for three-
quarters of the cleanup. Unfortunately, Cerro de Pasco 
Corporation, which operated the complex for 52 years, is no 
longer in existence.
    And Doe Run has often said, well, it is the government that 
hasn't complied with the environmental commitments or the 
environmental mitigation activities necessary. But, again, the 
question is, how can the government do anything while toxic 
gasses are continuing to be emitted by the Doe Run company? 
That is why we say that any new operator of the complex, 
whether that is Doe Run or any other company that wants to run 
the metallurgical complex in La Oroya, should only do so after 
complying with the environmental mitigation commitments.
    Mr. Smith. I would like to ask you, what does delay in 
cleanup of contaminated soils mean in terms of risk? We talk 
about some of this being three feet down and leeching, I 
suppose, the issue of runoff. How long can this stay unfocused 
upon and unacted upon and not lead to further risks in terms of 
runoff and leeching?
    Maybe, Dr. Serrano, that might be one for you.
    Mr. Serrano. Yes, Mr. Chairman.
    As I said, I am not aware of any remediation program that 
has taken place in La Oroya, although we have called for that. 
We believe that that will eliminate a source of contamination. 
So it has not taken place. And because of the reasons you have 
heard between the discussion of who is responsible, it was 
indicated it is clear who is responsible, and the polluter is 
responsible.
    So we know we have the methods and techniques to do 
remediation. That is well known. We have done it in the U.S. in 
Superfund sites. We have done it in cities. It can be done in 
La Oroya. It can be done in that region.
    But we do need the commitment of the polluters, in this 
case Doe Run Peru and the government, to come up not only with 
the program but with the money to fund it. They need to fund, 
they need to remediate, and they need to solve this problem of 
soil contamination. They haven't done so yet.
    Mr. Smith. We received a letter from Mr. Dennis Sadlowski, 
who is the Vice President-Law for Renco, and he asks a question 
in his letter that ``we believe it is in the interests of both 
the United States and Peru to ensure agreements made are 
agreements that are kept, and we hope the subcommittee will 
direct our State Department to communicate this to the current 
Peruvian administration.''
    As I said earlier, we had invited the State Department, 
USAID, and other responsible people within the Obama 
administration to come here and give testimony. For whatever 
reason, they have declined to do so.
    But what do you make of that question? Has the U.S. 
Government done that to the Peruvians?
    Maybe, Mr. Slack, you might be aware of that?
    Mr. Slack. I think the key issue at stake here is the 
extent to which the company is genuinely committed to taking 
the actions that are necessary to address the environmental 
problems at La Oroya. And, in our view, it seems to be largely 
a distraction, a waste of time and money to engage in these 
legal proceedings when those resources could be invested toward 
addressing these problems.
    So Doe Run has not committed to installing the emission 
control technology that is needed there. So, instead of 
pursuing these legal strategies, why doesn't it simply commit 
to doing that? Working with the Peruvian Government and with 
the support of the United States Government, I think that would 
be beneficial, to find a solution to address this problem and 
not pursue these issues through those legal means.
    Mr. Smith. Is there a question that any of you would have 
for the U.S. administration, over which obviously as an 
American, as a lawmaker in the U.S. Congress, are we doing our 
part?
    One of my concerns with each of the free trade agreements, 
going back to NAFTA with Mexico, which I did vote against 
primarily because of workers' rights and because of 
environmental protections, is that while on paper it looked to 
be very strong and robust, but were anything but in terms of 
implementation. And I am wondering with regard to the United 
States-Peru Trade Promotion Agreement that went into effect in 
December 2007, is there a similar weakness with regards to 
environmental standards? It may look good on paper, but are 
they truly enforced by the Government of Peru and are we doing 
our part as a Government to push in that important area? 
Archbishop?
    Archbishop Barreto. The first thing the U.S. Government can 
do is to not support the Doe Run Corporation.
    Secondly, the Mining Society of Peru has already thrown Doe 
Run out of its organization for its poor environmental 
practices, and the president of the Corporations Association 
has said clearly that companies like Doe Run should not be in 
the country. So, for me, it is very clear that if the United 
States Government supports a U.S. company that is known for 
noncompliance with environmental laws that it really is going 
to be colluding in this irresponsibility.
    I also have to say, unfortunately, as a Peruvian that our 
Peruvian Governments over the years have closed their eyes to 
this serious problem and have not passed laws to protect the 
lives of our population. But the past Peruvian Governments and 
the current government have indeed tried to take more firm 
measures. When the company has applied for extensions, it has 
denied extensions to this company, which has sought to profit--
and I have to say it clearly--to profit on the lives and health 
of our population.
    I think the United States has to be very firm as well, that 
never again should we allow complexes like this to get up and 
running again without first doing the cleanup and environmental 
mitigation necessary.
    I think that in the defense of life and human rights, both 
the U.S. and the Peruvian Governments should get together and 
have serious dialogues about how to get out of this situation, 
out of this trap. I think La Oroya is an emblematic case of 
both governmental and corporate irresponsibility.
    Mr. Smith. Thank you.
    On that point, Mr. Slack, you mentioned that the U.S. 
Government should offer the support of the U.S. Environmental 
Protection Agency to Peru in helping to address critical 
environmental and public health concerns like those we have 
seen in La Oroya. Has it?
    Mr. Slack. In conversations that we have had with the EPA, 
they have indicated their interest in trying to be supportive 
in this situation, and that is subject to requests from the 
Peruvian Government to make that happen. So I think an 
expression of interest----
    Mr. Smith. We are never shy in--honestly, because I have 
been in Congress 32 years, we are never shy in admonishing, 
requesting, encouraging a government to do something 
proactively. We don't wait for an invitation.
    Mr. Slack. And I think that would be extremely helpful. If 
this were to rise up in the priority level of U.S. policy 
versus Peru, a resolution of this situation, I think that would 
have a tremendous impact on that.
    Mr. Smith. We will follow up on that. That is a great idea.
    Are there any final comments that any of the distinguished 
witnesses would like to make?
    Archbishop Barreto. I just want to close by giving our 
special thanks to you, Chairman Chris Smith, for the kindness 
and the determination that you have shown in inviting us to be 
here to be witnesses on behalf of the life and the health of 
the people of our country. Thank you for being concerned about 
the threats that we are facing and for accompanying the hopes 
of the Peruvian people.
    Mr. Smith. Thank you.
    Ms. Amaro. Thank you.
    Yes, I would like to ask the congressmen and women of the 
United States to advocate for the children and for the pregnant 
women of La Oroya, to pressure the Doe Run company, if it is 
going to continue there, for it to build its sulfuric acid 
plant. It had a deadline for finishing this plant in 2009. It 
received an extension. It asked for another extension without 
having done anything.
    I think if the U.S. Government can demand of owners like 
the Renco Group and the Doe Run company that, in addition to 
thinking about the money that they are going to produce in 
their operations, that they also think about the lives and the 
health of the people in the area.
    Mr. Smith. Okay. I want to thank you for your tremendous 
testimony, your answers to questions that were very, very 
informative and incisive.
    I do want to say that, Archbishop Barreto, when I first met 
you I was struck by the balance that you brought to this issue. 
You emphasize that you want the people of Peru and the people 
in this area to have jobs but not at the expense of people's 
health, well-being and whether or not their health is degraded 
by these chemicals and these minerals and environmental 
pollution. You emphasized that especially as it relates to 
children and because they are so vulnerable at that critical 
time, the impact that this has disproportionately to its impact 
on unborn children, who often are hurt irreparably by this 
contamination.
    As I think all of you know, especially the Americans, we 
have had a multi-decade-long fight for environmental 
protection. Every bill, Clean Air Act, Clean Water Act, 
Superfund, everything was rife with contention. But at the end 
of the day, if we are not protecting our people from 
environmental hazards, we have failed utterly. So I again 
salute you for being beacons of hope and clarity on behalf of 
the people who are put at risk.
    So, again, I want to thank you. We will follow up. We will 
ask--there are a number of takeaways for this subcommittee from 
this hearing in terms of requests to the administration. We 
will be in contact with the Government of Peru and all parties, 
we have already heard from Renco, to do our part. Because, 
again, if these free trade agreements are to have any validity, 
they cannot be engraved invitations for anyone anywhere in the 
world to pollute and to, again, put people's lives at risk.
    So I thank you, and we will follow up. This has been a 
very, very informative and disturbing hearing.
    The hearing is adjourned.
    [Whereupon, at 3:42 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


           Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
